Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





  DEFICIT REDUCTION ACT OF
2005: IMPACT ON THE MEDICAID
    FEDERAL UPPER LIMIT
          PROGRAM




                    Daniel R. Levinson

                     Inspector General 


                       June 2007 

                     OEI-03-06-00400

                Office of Inspector General 

                                       http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying out
their respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement
and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
Specifically, these evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness in departmental programs. To promote impact, the reports
also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment
by providers. The investigative efforts of OI lead to criminal convictions, administrative
sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
in OIG’s internal operations. OCIG imposes program exclusions and civil monetary penalties
on health care providers and litigates those actions within HHS. OCIG also represents OIG in
the global settlement of cases arising under the Civil False Claims Act, develops and monitors
corporate integrity agreements, develops compliance program guidances, renders advisory
opinions on OIG sanctions to the health care community, and issues fraud alerts and other
industry guidance.
I N T R O D        U C T      I O N
Δ    E X E C U T I V E                           S U M M A R Y                                 



                    OBJECTIVES
                    1.	 To compare Federal upper limit amounts under the previous
                        calculation method to estimated pharmacy acquisition costs for
                        selected high-expenditure drugs.

                    2.	 To estimate how previous Medicaid Federal upper limit amounts
                        may change under the new calculation method requiring payment
                        limits for a drug to be set at 250 percent of the lowest average
                        manufacturer price (AMP).

                    3.	 To compare Federal upper limit amounts under the new calculation
                        method to estimated pharmacy acquisition costs for selected high-
                        expenditure drugs.

                    4.	 To compare the lowest AMP to other AMPs for Federal upper limit
                        drugs.

                    5.	 To determine whether the relationship between the lowest AMP and
                        other AMPs for selected high-expenditure drugs could help identify
                        instances in which pharmacy acquisition costs may exceed the new
                        Federal upper limit amounts.


                    BACKGROUND
                    Previous Office of Inspector General (OIG) work consistently found that
                    the published prices that were used to set Medicaid Federal upper limit
                    amounts often greatly exceeded prices available in the marketplace.
                    Based in part on this work, the Deficit Reduction Act of 2005 (DRA)
                    required that, beginning January 1, 2007, Medicaid Federal upper
                    limits be based on 250 percent of the lowest AMP rather than on
                    150 percent of the lowest price published in the national compendia.
                    The Congressional Budget Office estimates that this will reduce
                    Medicaid expenditures for Federal upper limit drugs by $3.6 billion over
                    5 years.

                    In response to these changes, industry groups have expressed concerns
                    that pharmacies will not be able to acquire drugs for prices at or below
                    the new Federal upper limit amounts. In an effort to ensure that
                    Medicaid providers are reimbursed appropriately and, in turn, that
                    Medicaid beneficiaries continue to have access to needed drugs, this
                    study provides a preliminary assessment of the expected impact of the
                    DRA reductions.



 OEI-03-06-00400    DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   i
E X E C U T I V E               S U        M M A R Y


                   We identified all drugs on the Federal upper limit list in the second
                   quarter of 2006. To estimate Federal upper limit amounts for these
                   521 drugs under the new methodology set forth in the DRA, we obtained
                   AMP data from the second quarter of 2006. We then multiplied the
                   lowest AMP for each drug by 250 percent and compared the result to the
                   actual Federal upper limit amounts from the second quarter of 2006,
                   which were based on 150 percent of the lowest published prices.

                   To estimate pharmacy acquisition costs, we collected second-quarter
                   2006 sales and pricing data from five distributors for the 25 selected
                   drugs with the highest total Medicaid expenditures in 2005 included on
                   the Federal upper limit list. We then compared our estimate of
                   pharmacy acquisition costs to the previous and new Federal upper limit
                   amounts for each of the 25 selected high-expenditure drugs.

                   To determine whether the lowest AMPs used to set the new Federal
                   upper limit amounts were representative of other AMPs for the same
                   drugs, we determined whether the lowest AMP was more than
                   60 percent below the second-lowest AMP and/or volume-weighted AMP
                   (weighted by the number of units reimbursed by Medicaid in 2005). In a
                   recently issued proposed regulation, the Centers for Medicare &
                   Medicaid Services (CMS) announced plans to use a similar threshold
                   (70 percent) involving the second-lowest AMP to identify potential
                   issues. We chose to use 60 percent in our analysis because whenever
                   the lowest AMP exceeds this threshold relative to the second-lowest
                   AMP, then the second-lowest AMP (and all other AMPs) for a drug
                   would be higher than the new Federal upper limit amount.

                   For any of the 25 selected high-expenditure drugs for which the second-
                   lowest AMP and/or volume-weighted AMP exceeded our 60-percent
                   threshold, we determined whether the estimated average pharmacy
                   acquisition cost exceeded the new Federal upper limit amount. We
                   repeated this analysis for drugs that did not exceed the 60-percent
                   threshold. This analysis enabled us to determine whether, for these
                   25 drugs, exceeding the 60-percent threshold was linked to a drug’s
                   average acquisition cost being higher than new Federal upper limit
                   amount.




 OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   ii
E X E C U T I V E               S U        M M A R Y 




                   FINDINGS
                   For 23 of the 25 drugs under review, Federal upper limit amounts
                   set under the previous calculation method were more than double
                   the average pharmacy acquisition costs. Pre-DRA Federal upper
                   limit amounts substantially exceeded our estimate of average pharmacy
                   acquisition costs for the 25 selected high-expenditure drugs in the
                   second quarter of 2006. For 23 of these 25 drugs, Federal upper limit
                   amounts based on 150 percent of the lowest published price were more
                   than double the average pharmacy acquisition costs. For 13 drugs, the
                   second-quarter 2006 Federal upper limit amounts were at least 5 times
                   higher.
                   As intended by the Deficit Reduction Act of 2005, Federal upper limit
                   amounts are likely to decrease under the new calculation method.
                   We estimate that Federal upper limit amounts will decrease by a
                   median of 61 percent under the new calculation method set forth in the
                   DRA. Based on AMP data from the second quarter of 2006, we
                   determined that Federal upper limit amounts for 492 of the 521 drugs
                   (94 percent) under review would be reduced under the new DRA
                   requirements, with 334 (64 percent) decreasing by at least half. Federal
                   upper limit amounts for 90 of the 521 drugs would be at least 90 percent
                   below the second-quarter 2006 amounts.
                   Six of twenty-five selected high-expenditure drugs had estimated
                   average pharmacy acquisition costs that would be below the new
                   Federal upper limit amounts. Based on pricing and sales data
                   provided by distributors, we determined that, on average, pharmacies
                   would have been able to purchase only 6 of 25 selected high-expenditure
                   drugs for less than the new Federal upper limit amounts during the
                   second quarter of 2006. For the remaining 19 drugs, the average
                   pharmacy acquisition costs would have been higher than the new
                   Federal upper limit amounts that quarter. We estimate that 12 of these
                   19 drugs had average pharmacy acquisition costs that would have been
                   more than double the new reimbursement limit. For 13 of the
                   25 selected high-expenditure drugs, at least one individual drug product
                   was available for a price at or below the new Federal upper limit
                   amount.
                   The average manufacturer price used to set a new Federal upper
                   limit amount may be substantially lower than other average
                   manufacturer prices associated with a drug. For 14 percent of the
                   drugs on the Federal upper limit list, the lowest AMP was more than

 OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   iii
E X E C U T I V E               S U        M M A R Y


                   60 percent below the second-lowest AMP. In addition, for 29 percent of
                   reviewed drugs, the lowest AMP was more than 60 percent less than the
                   volume-weighted AMP.
                   Among the 25 selected high-expenditure drugs, examining the
                   volume-weighted AMPs helped identify instances in which
                   pharmacy acquisition costs may exceed the new Federal upper
                   limit amounts. In the second quarter of 2006, the lowest AMP was
                   more than 60 percent below the volume-weighted AMP for 20 of the
                   25 selected high-expenditure drugs under review. For all but one of
                   these drugs, the estimated average pharmacy acquisition cost exceeded
                   the new Federal upper limit amount. Likewise, for the five drugs for
                   which the lowest AMP did not exceed the 60-percent threshold
                   compared to the volume-weighted AMP, the average pharmacy
                   acquisition costs were below the new Federal upper limit amount. In
                   other words, in all but one case, determining whether or not the lowest
                   AMP for any of the 25 selected high-expenditure drugs exceeded the
                   60-percent threshold compared to the volume-weighted AMP would
                   have accurately determined whether or not its average acquisition cost
                   was higher than the new Federal upper limit amount.

                   Examining the second-lowest AMP, rather than the volume-weighted
                   AMP, was not as effective in identifying instances in which pharmacy
                   acquisition costs exceeded the new Federal upper limit amount for the
                   25 selected high-expenditure drugs.


                   RECOMMENDATIONS
                   The findings of this report again illustrate why changes to the previous
                   calculation method were needed, as this method (based on published
                   prices) led to inflated Medicaid payments for many high-dollar generic
                   drugs. However, we have concerns that, at least initially, the new
                   formula mandated by the DRA (based on lowest AMPs) may result in
                   some Federal upper limit amounts that are below pharmacy acquisition
                   costs. This could occur because for certain drugs the lowest AMPs may
                   not reflect prices generally available in the marketplace.

                   As part of the proposed Federal upper limit regulation, CMS announced
                   plans to identify potential reimbursement issues by removing the lowest
                   AMP if it appears to be an outlier. The proposed regulation defines an
                   outlier as a lowest AMP that is more than 70 percent below the second-
                   lowest AMP. We support CMS’s attempts to proactively resolve
                   potential problems with the new formula. However, our analysis

 OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   iv
E X E C U T I V E               S U        M M A R Y


                   (applying a more limited 60-percent threshold) indicates that using the
                   second-lowest AMP may not alleviate all reimbursement issues.

                   In addition to CMS’s efforts, drug manufacturers and pharmacies also
                   have important roles in helping to ensure that the new Federal upper
                   limit amounts are appropriate. Manufacturers of generic drugs should
                   make certain that the AMPs they are reporting to CMS are accurate. In
                   turn, pharmacies should inform CMS if the new Federal upper limit
                   amounts are lower than the prices at which they can purchase certain
                   drugs.

                   We recognize that for various reasons (e.g., definitional changes in
                   AMP, market forces, etc.), the relative relationship between the Federal
                   upper limit amounts and other price points presented in this report may
                   change once the new method of calculation is implemented. However,
                   new Federal upper limit amounts should be monitored closely to help
                   ensure that reimbursement changes do not lead to access problems for
                   Medicaid beneficiaries. Specifically, we recommend that:
                   CMS should take steps to identify when a new Federal upper limit amount
                   may not be representative of a drug’s acquisition cost to pharmacies.
                   These steps could include:

                       •	   issuing a final regulation that would remove the lowest AMP
                            from the Federal upper limit calculation when it is significantly
                            lower than the volume-weighted AMP (rather than the second-
                            lowest AMP) for a drug,

                       •	   contacting manufacturers to verify reported data in situations
                            for which the lowest AMP appears to be significantly lower than
                            other AMPs for a drug,
                       •	   examining Medicaid utilization data to ensure that the product
                            on which the Federal upper limit is based is actually utilized in
                            the marketplace, and

                       •	   providing an opportunity for pharmacies to alert the States and
                            CMS when they can demonstrate an inability to purchase a drug
                            at prices at or below the new Federal upper limit amount.
                   In situations where 250 percent of the lowest AMP may not be sufficient
                   to cover pharmacy acquisition costs, CMS should determine the proper
                   course of action (working with Congress, if necessary).




 OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   v
E X E C U T I V E               S U        M M A R Y 




                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendation that the new Federal upper
                   limit amount should be monitored closely during initial implementation
                   and agreed that manufacturers play an important role in this regard.
                   However, CMS strongly disagreed with our findings concerning the
                   effect of the DRA-related changes to the Federal upper limit calculation.
                   CMS suggested that OIG should have waited until the final AMP
                   regulation is promulgated before completing its study, stating “it is only
                   after a final definition of AMP has been issued that an accurate analysis
                   of the impact of DRA can be conducted.” Once that occurs, CMS
                   believes that an analysis based on actual AMPs would yield
                   substantially different results. CMS stated that the analysis in OIG’s
                   report is deficient in numerous ways and such deficiencies lead to
                   flawed results and misleading conclusions. Therefore, CMS requested
                   that we (1) revise our analysis to address these flaws and (2) delay
                   issuing this report while considering earlier discussions and working
                   collaboratively with the agency.

                   OIG will continue to work collaboratively with CMS in an effort to
                   address any potential issues with the new calculation method for
                   Federal upper limits. However, issuing this report prior to CMS’s
                   publication of its final regulation provides the agency with the
                   opportunity to consider our findings and incorporate our
                   recommendations. The data presented in this report are the best
                   available for the timeframe, and any limitations have marginal impact
                   and do not change the overall findings and conclusions. We note that a
                   similar report by the Government Accountability Office identified the
                   same issues and reached similar conclusions.




 OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   vi
Δ   T A B L E          O F           C O N T E N T S                              




         EXECUTIVE SUMMARY .....................................i




         INTRODUCTION ........................................... 1




         FINDINGS ................................................. 9

                   For 23 of 25 drugs, previous limit was double acquisition cost . . . . 9 


                   Federal upper limits are likely to decrease substantially . . . . . . . 10 


                   Acquisition costs are below new limit for 6 of 25 drugs. . . . . . . . . 11 


                   Lowest AMP may be substantially lower than other AMPs . . . . . 12 


                   Examining volume-weighted AMPs may help identify issues. . . . 13 


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15 

                   Agency Comments and Office of Inspector General Response . . . 16 


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 

                   A. Detailed Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21 


                   B. Agency Comments. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25 



         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33 

Δ   I N T R O D U C T I O N                                           



                  OBJECTIVES
                  1.	 To compare Federal upper limit amounts under the previous
                      calculation method to estimated pharmacy acquisition costs for
                      selected high-expenditure drugs.

                  2.	 To estimate how previous Medicaid Federal upper limit amounts
                      may change under the new calculation method requiring payment
                      limits for a drug to be set at 250 percent of the lowest average
                      manufacturer price (AMP).

                  3.	 To compare Federal upper limit amounts under the new calculation
                      method to estimated pharmacy acquisition costs for selected high-
                      expenditure drugs.

                  4.	 To compare the lowest AMP to other AMPs for Federal upper limit
                      drugs.

                  5.	 To determine whether the relationship between the lowest AMP and
                      other AMPs for selected high-expenditure drugs could help identify
                      instances in which pharmacy acquisition costs may exceed the new
                      Federal upper limit amounts.


                  BACKGROUND
                  Previous Office of Inspector General (OIG) work consistently found that
                  the published prices that were used to set Medicaid Federal upper limit
                  amounts often greatly exceeded prices available in the marketplace.
                  Based in part on this work, the Deficit Reduction Act of 2005 (DRA),
                  Public Law 109-171, made substantial changes to the way Federal
                  upper limit amounts are to be calculated. Beginning January 1, 2007,
                  Federal upper limits are to be based on 250 percent of the lowest
                  reported AMP for each drug rather than 150 percent of the lowest price
                  published in the national compendia. The Congressional Budget Office
                  estimates that this new methodology will reduce Medicaid expenditures
                  for Federal upper limit drugs by $3.6 billion over 5 years.

                  In response to these changes, industry groups have expressed concerns
                  that pharmacies will not be able to acquire drugs for prices at or below
                  the new Federal upper limit amounts.1 In an effort to ensure that

                    1 An example includes “Implications of Federal Medicaid Generic Drug Payment

                  Reduction for State Policymakers.” National Association of Chain Drug Stores, February
                  2006.



OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   1
I N T R O D        U C T      I O N


                    Medicaid providers are reimbursed appropriately and, in turn, that
                    Medicaid beneficiaries continue to have access to needed drugs, this
                    study provides a preliminary assessment of the expected impact of the
                    DRA reductions.
                   Medicaid Reimbursement for Prescription Drugs
                   Currently, all 50 States and the District of Columbia offer prescription
                   drug coverage under Medicaid. Medicaid beneficiaries typically obtain
                   covered drugs from pharmacies. Pharmacies bill State Medicaid
                   agencies using national drug codes (NDC), which are 11-digit identifiers
                   that indicate a drug’s manufacturer, product dosage form, and package
                   size. Pharmacies are then reimbursed for these drugs by State
                   Medicaid agencies. In calendar year (CY) 2005, Medicaid payments for
                   prescription drugs totaled over $41 billion.2
                   Federal regulations require, with certain exceptions, that each State
                   Medicaid agency’s reimbursement for covered outpatient drugs not
                   exceed (in the aggregate) the lower of their estimated acquisition cost
                   plus a reasonable dispensing fee or the provider’s usual and customary
                   charge to the public for the drugs.3 The Centers for Medicare &
                   Medicaid Services (CMS) allows States the flexibility to define
                   estimated acquisition cost, with most States basing their calculation on
                   list prices published in the national compendia. For certain drugs,
                   States also use the Federal upper limit and/or State maximum
                   allowable cost programs in setting reimbursement amounts.4
                   Medicaid Federal Upper Limit Requirements Prior to January 1, 2007
                   According to CMS’s Web site, the Federal upper limit program was
                   created to ensure that the Federal Government acts as a prudent buyer
                   by taking advantage of current market prices for multiple-source drugs.5

                      2 Calculated using national summary data for 2005. This amount includes both Federal
                    and State payments. Rebates collected by States under the Medicaid drug rebate program
                    (section 1927 of the Social Security Act) were not subtracted from this figure. Available
                    online at http://www.cms.hhs.gov/MedicaidDrugRebateProgram/SDUD/list.asp. Accessed
                    on October 30, 2006.
                      3 42 CFR § 447.331(b). On December 22, 2006, CMS issued a proposed regulation that
                    would remove 42 CFR § 447.331 but include the unchanged substance of this section in a
                    new section, 42 CFR § 447.512.
                      4 Many States have implemented maximum allowable cost programs to limit
                    reimbursement amounts for certain drugs. Individual States determine the types of drugs
                    that are included in their maximum allowable cost programs and the methods by which the
                    maximum allowable cost for a drug is calculated.
                      5 Available online at http://www.cms.hhs.gov/FederalUpperLimits. Accessed on
                    September 8, 2006.



 OEI-03-06-00400    DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   2
I N T R O D        U C T      I O N


                    For purposes of the time covered by our review, pursuant to section
                    1927(e)(4) of the Social Security Act and 42 CFR § 447.332, CMS is
                    generally to establish a Federal upper limit amount for a drug when
                    three or more formulations of a drug have been rated as therapeutically
                    equivalent by the Food and Drug Administration and at least three
                    suppliers of the drug are listed in current editions (or updates) of the
                    published compendia of cost information for drugs available for sale
                    nationally (e.g., Micromedex “RedBook”).

                   Prior to January 1, 2007, Federal regulations (42 CFR § 447.332) set the
                   Federal upper limit amount at 150 percent of the lowest price published
                   in the national compendia for therapeutically equivalent products that
                   can be purchased by pharmacists in quantities of 100 tablets or
                   capsules, plus a reasonable dispensing fee.6 If the drug is not typically
                   available in quantities of 100 or if the drug is a liquid, then the Federal
                   upper limit amount is based on the price for a commonly listed size of
                   the product.

                    CMS publishes the Federal upper limit list in the “State Medicaid
                    Manual” and on its Web site. Revisions to the list are typically noted on
                    the Web site. CMS establishes a Federal upper limit for specific forms
                    and strengths for each multiple-source drug on the list. As of June 30,
                    2006, CMS had set Federal upper limit amounts for 530 drugs.
                    According to CMS data, generic drugs included on the Federal upper
                    limit list account for approximately 8 percent of total Medicaid
                    expenditures for all prescription drugs.
                    New Federal Upper Limit Requirements in Effect January 1, 2007
                    Section 6001(a) of the DRA makes significant changes to the Federal
                    upper limit program. As of January 1, 2007, a drug needs only two
                    therapeutically equivalent versions to be included on the Federal upper
                    limit list.7 Beginning that same date, Federal upper limit amounts are
                    to be based on 250 percent of the lowest reported AMP for each drug
                    rather than 150 percent of the lowest price published in the national
                    compendia.8




                       6 States are required to meet Federal upper limit requirements only in the aggregate,
                    i.e., a State can pay more than the Federal upper limit amount for certain products as long
                    as these payments are balanced out by lower payments for other products.
                      7 Section 6001(a)(1)(B) of the DRA.
                      8 Section 6001(a)(2) of the DRA.




 OEI-03-06-00400    DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   3
I N T R O D        U C T      I O N


                    For the period of time covered by this review, section 1927(k)(1) of the
                    Social Security Act defines the AMP as the average price paid to the
                    manufacturer for the drug in the United States by wholesalers for drugs
                    distributed to the retail pharmacy class of trade after deducting
                    customary prompt pay discounts. Pursuant to sections 6001(c)(1) and
                    6001(c)(2) of the DRA, as of January 1, 2007, the AMP is required to be
                    determined without regard to customary prompt pay discounts extended
                    to wholesalers, and such discounts shall be reported separately to CMS.

                    On December 22, 2006, CMS issued a proposed regulation to implement
                    certain provisions of the DRA.9 For example, 42 CFR § 447.504 of the
                    proposed regulation outlines the manner in which the AMP is to be
                    determined, and 42 CFR § 447.514 addresses the new criteria for the
                    establishment of Federal upper limit amounts. The latter section
                    (447.514(b)) implements the use of 250 percent of the AMP for the least
                    costly therapeutically equivalent drug as the basis for Federal upper
                    limit amounts. Section 447.514(c) of the proposed regulation establishes
                    an alternative methodology to be used in setting Federal upper limit
                    amounts if the lowest AMP is significantly below the next highest AMP
                    for a drug. As further explained in the background to the proposed
                    regulation, CMS will use the AMP of the lowest-priced therapeutically
                    equivalent drug “except in cases where this AMP is more than 70
                    percent below the second lowest AMP.”10 CMS is currently soliciting
                    public comment on the proposed regulation. Section 6001(c) of the DRA
                    requires CMS to publish a final regulation by July 1, 2007.

                    In addition, prior to the enactment of the DRA, section 1927(b)(3)(D) of
                    the Social Security Act prohibited the disclosure of AMP data except in
                    certain narrow circumstances. At that time, AMP data were used
                    primarily by CMS for purposes of the Medicaid drug rebate program.
                    However, pursuant to sections 6001(a) and 6001(b) of the DRA, AMP
                    data will also be used to calculate Federal upper limit amounts and will
                    be made available to State Medicaid agencies and the public. These
                    changes allow States to use AMP data in their determination of
                    estimated acquisition costs for drugs covered under Medicaid.11



                      9 Proposed Rule, “Medicaid Program; Prescription Drugs,” 71 Federal Register 77174. 

                      10 Ibid at 77188. 

                      11 OIG examines AMP-based reimbursement issues in “States’ Use of New Drug Pricing


                    Data To Establish Medicaid Reimbursement for Prescription Drugs” (OEI-03-06-00490) and
                    “Examining Fluctuations in Average Manufacturer Prices” (OEI-03-06-00350).



 OEI-03-06-00400    DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   4
I N T R O D        U C T      I O N


                   Previous OIG Work Regarding the Federal Upper Limit Program
                   In the past 3 years, OIG has issued four reports detailing potential
                   problems with the Federal upper limit program.12 These reports focused
                   on two main concerns: (1) qualified drugs were not being included on
                   the Federal upper limit list in a timely manner and (2) Federal upper
                   limit amounts often greatly exceeded pharmacy acquisition costs. For
                   example, we found that Federal upper limit amounts were five times
                   higher than average AMPs (a figure that we used as an estimate of
                   pharmacy acquisition costs) in the third quarter of 2004. At that time,
                   we recommended that CMS work with Congress to set Federal upper
                   limit amounts that more closely approximate pharmacy acquisition
                   costs.

                    The findings and recommendations from all four reports were presented
                    at several congressional hearings, with the most recent testimony
                    delivered before the Senate Finance Committee in June 2005.13


                    METHODOLOGY
                    Please see Appendix A for a detailed methodology.

                    Data Sources
                    Using Federal upper limit data from CMS’s Web site and the national
                    drug compendium “Redbook,” we identified the 530 drugs included on
                    the Federal upper limit list in the second quarter of 2006. 14 We
                    obtained Medicaid drug reimbursement and utilization data from CMS’s
                    Web site and then identified the 25 drugs on the Federal upper limit list
                    with the highest total Medicaid expenditures in CY 2005.
                    For the 25 selected drugs with the highest total Medicaid expenditures
                    in 2005, we collected second-quarter 2006 pricing and sales data from
                    the three largest national distributors and two smaller regional


                      12 “Omission of Drugs From the Federal Upper Limit List in 2001” (OEI-03-02-00670,
                    February 2004); “Addition of Qualified Drugs to the Federal Upper Limit List” (OEI-03-04
                    00320, December 2004); “Comparison of Medicaid Federal Upper Limit Amounts to Average
                    Manufacturer Prices” (OEI-03-05-00110, June 2005); and “How Inflated Published Prices
                    Affect Drugs Considered for the Federal Upper Limit List” (OEI-03-05-00350, September
                    2005).
                      13 Available online at http://www.oig.hhs.gov/testimony/docs/2005/50629-vito-fin.pdf.

                    Accessed on September 8, 2006.
                      14 In this report, “drug” refers to the specific drug name/dosage size/product form

                    combination that is used as the basis for setting Federal upper limit amounts (e.g.,
                    Gabapentin 400 mg tablets).



 OEI-03-06-00400    DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   5
I N T R O D        U C T      I O N


                    distributors. According to industry sales reports, these three national
                    companies account for the vast majority of market share among drug
                    distributors. We obtained second-quarter 2006 AMP data from CMS.
                    Data Analysis
                    Estimating Pharmacy Acquisition Costs for Selected Drugs. To estimate
                    average pharmacy acquisition costs for each of the 25 selected high-
                    expenditure drugs, we totaled the dollar amount sold (net of any
                    discounts or rebates, when provided) by the five distributors and divided
                    this amount by the total number of units sold. For the purpose of this
                    report, these estimates will hereinafter be referred to as “average
                    pharmacy acquisition costs.” We also determined the lowest price
                    reported to OIG by the distributors for any NDC associated with the
                    25 drugs.
                    Estimating Federal Upper Limit Amounts Under New Calculation Method. We
                    determined the lowest AMP reported by manufacturers for each of the
                    530 drugs on the Federal upper limit list in the second quarter of 2006.
                    Of the 530 drugs on the list that quarter, 9 did not have AMP data for
                    any nonterminated, therapeutically equivalent NDCs of a commonly
                    listed size. Therefore, we did not include these nine drugs in our
                    analysis. For the remaining 521 drugs, we multiplied the lowest AMP
                    by 250 percent to estimate the new Federal upper limit amounts under
                    the methodology mandated by the DRA. For the purpose of this report,
                    these estimates will hereinafter be referred to as “new Federal upper
                    limit amounts.” We calculated the difference between the new Federal
                    upper limit amounts and the second-quarter 2006 Federal upper limit
                    amounts for each of the 521 drugs.
                    Comparing Pharmacy Acquisition Costs to Federal Upper Limit Amounts. We
                    calculated the percentage difference between the second-quarter 2006
                    Federal upper limit amounts and the average pharmacy acquisition
                    costs for each of the 25 selected high expenditure drugs. We then
                    calculated the difference between the new Federal upper limit amounts
                    and the average pharmacy acquisition costs. We also compared the
                    lowest price reported to OIG by the distributors for each drug with the
                    new Federal upper limit amounts.
                    Comparing the Lowest AMP to Other AMPs. To determine whether the
                    lowest AMPs used to set the new Federal upper limit amounts were
                    representative of other AMPs, we determined the second-lowest and




 OEI-03-06-00400    DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   6
I N T R O D        U C T      I O N


                    volume-weighted AMPs for each of the 521 drugs under review.15 We
                    then compared the lowest AMP to both the second-lowest and volume-
                    weighted AMPs for each of the 521 drugs and identified instances when
                    the lowest AMP was more than 60 percent below either of these two
                    figures.16 We subset out the results for the 25 selected high-expenditure
                    drugs for further analysis.
                    Determining Whether Other AMPs Could Help Identify Potential Issues.
                    Among the 25 selected high-expenditure drugs, we identified any
                    instances in which the lowest AMP was more than 60 percent below the
                    second-lowest and/or volume-weighted AMP. For any of the 25 drugs
                    that met this threshold, we determined whether the average pharmacy
                    acquisition cost exceeded the new Federal upper limit amount. We
                    repeated this analysis for any of the 25 drugs that did not meet the
                    60-percent threshold. This enabled us to determine whether, for these
                    25 drugs, exceeding the 60-percent threshold (compared to either the
                    second-lowest or volume-weighted AMP) was linked to a drug’s average
                    acquisition cost being higher than the new Federal upper limit amount.
                   Limitations
                   This study uses AMP data from the second quarter of 2006 to estimate
                   Federal upper limit amounts under the new methodology mandated by
                   the DRA. For some drugs, the lowest AMP may have increased or
                   decreased by the time the changes took effect in January 2007.

                    Furthermore, although sections 6001(a) and 6001(c)(1) of the DRA
                    provide that new Federal upper limit amounts will be based on AMPs as
                    computed without regard to customary prompt pay discounts, AMPs
                    used in this study did reflect the customary prompt pay discounts
                    offered by manufacturers, because this is how AMPs were reported at
                    the time of our analysis. After January 1, 2007, AMPs that are used to


                      15 We calculated the volume-weighted AMP among all NDCs for the drug by weighting
                    the AMP for each individual NDC by the number of units of the NDC reimbursed by
                    Medicaid in the second quarter of 2006.
                       16 In its proposed regulation, CMS uses a 70-percent rather than a 60-percent threshold

                    in comparing the lowest AMP to the second-lowest AMP. We chose to use 60 percent in our
                    analysis because whenever the lowest AMP exceeds this threshold relative to the second-
                    lowest AMP, then the second-lowest AMP (and all other AMPs) for a drug would be higher
                    than the new Federal upper limit amount. For example, a drug with a lowest AMP of $0.40
                    would have a new Federal upper limit amount of $1.00 ($0.40 times 250 percent). If the
                    second-lowest AMP is higher than this new Federal upper limit amount (e.g., $1.01), then
                    the lowest AMP would be at least 60 percent below the second-lowest AMP ($0.40 is 60.4
                    percent below $1.01).



 OEI-03-06-00400    DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   7
I N T R O D        U C T      I O N


                    calculate Federal upper limit amounts may be higher than earlier AMPs
                    because customary prompt pay discounts should no longer be included.

                    As mentioned previously, we asked distributors for the amount of
                    discounts and rebates provided to purchasers. Two of the five
                    distributors provided these data, which were then used in our
                    acquisition cost calculations. However, the three remaining distributors
                    did not provide discount and rebate data. Therefore, pharmacies’
                    bottom-line costs for some drugs may be lower than our estimates in
                    instances for which discounts and rebates were not captured in our data
                    collection. Two of the distributors that did not provide this information
                    stated that discounts and rebates are not captured on a quarterly basis
                    and are negotiated on a customer-by-customer basis, making it
                    extremely difficult to supply these data. One distributor did not provide
                    an explanation for the lack of discount and rebate data. In addition, we
                    did not determine whether the prices reported by the distributors were
                    nationally available to all pharmacies.

                    Because many States use maximum allowable cost programs to further
                    reduce drug expenditures, States may actually be reimbursing less than
                    the Federal upper limit amount for certain drugs. Therefore, the
                    differences between the pre-DRA Federal upper limit amount and the
                    new Federal upper limit amount may overstate the actual changes to
                    pharmacy reimbursement in these cases.

                    This study examines only drugs that were on the Federal upper limit
                    list as of the second quarter of 2006. Our review did not include any
                    drugs that may be added to the list based on the expanded criteria set
                    forth in the DRA (i.e., the establishment of Federal upper limits based
                    on two rather than three therapeutically equivalent products).
                    Finally, this study addresses Federal upper limit amounts and not
                    dispensing fees paid to pharmacies for providing drugs to Medicaid
                    beneficiaries. Both components of reimbursement are important to
                    ensure that Medicaid reimburses pharmacies appropriately for
                    prescription drugs.
                   Standards
                   This study was conducted in accordance with the “Quality Standards for
                   Inspections” issued by the President’s Council on Integrity and
                   Efficiency and the Executive Council on Integrity and Efficiency.




 OEI-03-06-00400    DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   8
Δ       F I N D I N G S 



  For 23 of the 25 drugs under review, Federal                        As in previous studies that found
                                                                      Federal upper limit amounts to be
   upper limit amounts set under the previous
                                                                      excessive, we estimate that
calculation method were more than double the
                                                                      Federal upper limit amounts
          average pharmacy acquisition costs                          under the pre-DRA methodology
                                                                      exceeded average pharmacy
                              acquisition costs for each of the 25 selected high-expenditure drugs in
                              the second quarter of 2006. For 23 of these 25 drugs, second-quarter
                              2006 Federal upper limit amounts (based on 150 percent of the lowest
                              published price) were more than two times higher than the average
                              pharmacy acquisition costs. In 13 cases, second-quarter 2006 Federal
                              upper limit amounts were at least five times higher. Table 1 illustrates
                              the percentage difference between the actual Federal upper limit
                              amounts and the pharmacy acquisition costs for the 25 selected drugs in
                              the second quarter of 2006.

Table 1: Comparison of Estimated Pharmacy Acquisition Costs to Previous Federal Upper Limit Amounts
                                                                                                                  Second-Quarter
                                                                                                                   2006 Federal
                                                                                        Average Pharmacy            Upper Limit
Drug                                                                                     Acquisition Cost            Amount         Difference
Lorazepam, 1MG, Tablet                                                                       $0.040                   $0.572            -93.0%
Ranitidine Hydrochloride, 150MG, Tablet                                                          $0.030                $0.341           -91.2%
Gabapentin, 300MG, Capsule                                                                       $0.157                $1.308           -88.0%
Gabapentin, 400MG, Capsule                                                                       $0.203                $1.570           -87.1%
Glyburide/Meformin Hydrochloride, 5MG-500MG, Tablet                                              $0.142                $1.003           -85.8%
Metformin Hydrochloride, 500MG, Tablet                                                           $0.055                $0.356           -84.5%
Omeprazole, 20MG, Enteric Coated Tablet                                                          $0.638                $3.979           -84.0%
Tramadol Hydrochloride, 50MG, Tablet                                                             $0.049                $0.307           -84.0%
Paroxetine Hydrochloride, 20MG, Tablet                                                           $0.445                $2.520           -82.3%
Gabapentin, 600MG, Tablet                                                                        $0.447                $2.470           -81.9%
Paroxetine Hydrochloride, 40MG, Tablet                                                           $0.517                $2.700           -80.9%
Gabapentin, 800MG, Tablet                                                                        $0.573                $2.959           -80.6%
Metformin Hydrochloride, 1000MG, Tablet                                                          $0.091                $0.460           -80.2%
Glimepiride, 4MG, Tablet                                                                         $0.084                $0.410           -79.5%
Glyburide, 5MG, Tablet                                                                           $0.069                $0.283           -75.6%
Potassium Chloride, 20MEQ, Tablet Extended Release                                               $0.121                $0.463           -73.8%
Acetaminophen/Propoxyphene Napsylate, 650MG-100MG, Tablet                                        $0.049                $0.180           -72.8%
Ribavirin, 200MG, Capsule                                                                        $2.304                $7.576           -69.6%
Albuterol Sulfate, 0.83%, Solution                                                               $0.041                $0.115           -64.3%
Acetaminophen/Hydrocodone Bitartrate, 500MG-5MG, Tablet                                          $0.032                $0.083           -61.6%
Oxycodone Hydrochloride, 80MG, Tablet Extended Release                                           $2.633                $6.118           -57.0%
Oxycodone Hydrochloride, 40MG, Tablet Extended Release                                           $1.445                $3.260           -55.7%
Oxycodone Hydrochloride, 20MG, Tablet Extended Release                                           $0.875                $1.837           -52.4%
Zonisamide, 100MG, Capsule                                                                       $0.657                $1.174           -44.0%
Albuterol, 0.09MG/Actuation, Aerosol Solid (Inhaler)                                             $0.335                $0.437           -23.3%
Source: OIG analysis of second-quarter 2006 Federal upper limit amounts and drug distributor data, 2006.


  OEI-03-06-00400             DEFICIT REDUCTION ACT     OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   9
F   I N D I N G        S        




        As intended by the Deficit Reduction Act of             In an effort to lower inflated
     2005, Federal upper limit amounts are likely to            Federal upper limit amounts
                                                                and bring Medicaid
       decrease under the new calculation method
                                                                reimbursement for generic
                      drugs more in line with actual costs, the DRA established a new method
                      for determining Federal upper limit amounts. Using data from the
                      second quarter of 2006 to assess the impact of the DRA changes, we
                      estimate that Federal upper limit amounts will decrease by a median of
                      61 percent under the new calculation method. Overall, based on second-
                      quarter 2006 data, we determined that Federal upper limit amounts for
                      492 of the 521 (94 percent) drugs under review would be reduced under
                      the new DRA requirements, with 334 (64 percent) expected to decrease
                      by at least half. Federal upper limit amounts for 90 of the 521 drugs
                      would be at least 90 percent below the second-quarter 2006 amounts.

                      Although our analysis indicates Federal upper limit amounts for the
                      vast majority of included drugs may be substantially reduced as a result
                      of the new law, we estimate that Federal upper limits for 29 drugs
                      (6 percent) would increase. Table 2 describes the estimated changes to
                      the 521 Federal upper limit drugs that were included in this part of our
                      review. As mentioned previously, it is important to note that because of
                      State maximum allowable cost programs, these percentage differences
                      may not reflect the actual changes to pharmacy reimbursement for all
                      drugs on the Federal upper limit list.

                        Table 2: Estimated Changes to Federal Upper Limit
                                 Amounts Under the DRA


                        Difference Between
                        New and Second Quarter 2006                       Number of       Percentage of
                        Federal Upper Limit Amount                           Drugs               Drugs

                        -99.9% to -90%                                               90            17.3
                        -89.9% to -80%                                               59            11.3
                        -79.9% to -50%                                             185             35.5
                        -49.9% to -20%                                             129             24.8
                        -19.9% to 0%                                                 29             5.6
                        0.1% to 19.9%                                                16             3.1
                        20% to 49.9%                                                  4             0.8
                        50% to 79.9%                                                  4             0.8
                        80% and above                                                 5             1.0
                        Total                                                      521            100 *
                      Source: OIG analysis of second-quarter 2006 AMP data, 2006.
                      *Note: Percentages do not add to 100 because of rounding.



    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   10
F   I N D I N G                S       




  Six of twenty-five selected high-expenditure                      Based on pricing and sales data
      drugs had estimated average pharmacy                          provided by distributors, we
                                                                    determined that, on average,
acquisition costs that would be below the new
                                                                    pharmacies would have been able
                   Federal upper limit amounts
                                                                    to purchase 6 of the 25 selected
                             high-expenditure drugs for less than the new Federal upper limit
                             amount in the second quarter of 2006. For the remaining 19 drugs,
                             average pharmacy acquisition costs would have been higher than the
                             new Federal upper limit amounts. Twelve of these nineteen drugs had
                             average pharmacy acquisition costs that would have been more than
                             double the new limits. For one drug, the average acquisition cost would
                             have been 18 times higher than the new Federal upper limit amount.
                             Table 3 illustrates the percentage difference between the new Federal
                             upper limit amounts and the pharmacy acquisition costs for the
                             25 selected drugs in the second quarter of 2006.

Table 3: Comparison of Estimated Pharmacy Acquisition Costs to New Federal Upper Limit Amounts

                                                                                       Average Pharmacy        New Federal Upper
Drug                                                                                    Acquisition Cost         Limit Amount       Difference
Albuterol, 0.09MG/Actuation, Aerosol Solid (Inhaler)                                        $0.335                  $0.767             -56%
Ranitidine Hydrochloride, 150MG, Tablet                                                         $0.030                $0.042            -29%
Acetaminophen/Hydrocodone Bitartrate, 500MG-5MG, Tablet                                         $0.032                $0.039            -18%
Gabapentin, 800MG, Tablet                                                                       $0.573                $0.669            -14%
Gabapentin, 600MG, Tablet                                                                       $0.447                $0.476             -6%
Oxycodone Hydrochloride, 80MG, Tablet Extended Release                                          $2.633                $2.719             -3%
Glimepiride, 4MG, Tablet                                                                        $0.084                $0.077             9%
Lorazepam, 1MG, Tablet                                                                          $0.040                $0.033             21%
Glyburide/Meformin Hydrochloride, 5MG-500MG, Tablet                                             $0.142                $0.105             35%
Potassium Chloride, 20MEQ, Tablet Extended Release                                              $0.121                $0.086             41%
Gabapentin, 300MG, Capsule                                                                      $0.157                $0.108             45%
Zonisamide, 100MG, Capsule                                                                      $0.657                $0.405             62%
Tramadol Hydrochloride, 50MG, Tablet                                                            $0.049                $0.027             82%
Acetaminophen/Propoxyphene Napsylate, 650MG-100MG, Tablet                                       $0.049                $0.024            104%
Metformin Hydrochloride, 500MG, Tablet                                                          $0.055                $0.026            112%
Omeprazole, 20MG, Enteric Coated Tablet                                                         $0.638                $0.299            113%
Glyburide, 5MG, Tablet                                                                          $0.069                $0.031            123%
Paroxetine Hydrochloride, 40MG, Tablet                                                          $0.517                $0.158            227%
Albuterol Sulfate, 0.83%, Solution                                                              $0.041                $0.011            273%
Ribavirin, 200MG, Capsule                                                                       $2.304                $0.400            476%
Gabapentin, 400MG, Capsule                                                                      $0.203                $0.030            577%
Oxycodone Hydrochloride, 40MG, Tablet Extended Release                                          $1.445                $0.191            657%
Oxycodone Hydrochloride, 20MG, Tablet Extended Release                                          $0.875                $0.080            994%
Paroxetine Hydrochloride, 20MG, Tablet                                                          $0.445                $0.025            1,680%
Metformin Hydrochloride, 1000MG, Tablet                                                         $0.091                $0.005            1,720%
Source: OIG analysis of second-quarter 2006 AMP data and drug distributor data, 2006.



    OEI-03-06-00400          DEFICIT REDUCTION ACT     OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   11
F   I N D I N G        S


                      For 13 of the 25 selected high-expenditure drugs, at least one individual
                      drug product was available for a price at or below the new Federal upper
                      limit amount. In the second quarter of 2006, 13 of the 25 selected high-
                      expenditure drugs had at least one associated NDC with an average
                      price from a distributor that would have been at or below the new
                      Federal upper limit amount. Of the remaining 12, there were 6 drugs
                      for which even the lowest price would be at least double the new Federal
                      upper limit amount. We did not determine whether the lowest-priced
                      NDCs were nationally available to all pharmacies.

    The average manufacturer price used to set a new          In the second quarter of 2006,
                                                              the lowest AMP was more
      Federal upper limit amount may be substantially
                                                              than 60 percent below the
        lower than other average manufacturer prices
                                                              second-lowest AMP (among
                               associated with a drug         therapeutically equivalent
                    products in a commonly-listed size) for 72 of the 521 listed drugs
                    (14 percent). In other words, the second-lowest AMPs (and all other
                    AMPs associated with the drug) for these drugs would be higher than
                    the new Federal upper limit amount.17 That same quarter, the lowest
                    AMP for 149 of the 521 listed drugs (29 percent) was more than
                    60 percent below the volume-weighted AMP.18
                      Volume-weighted AMPs sometimes differed from the lowest AMPs by a
                      large margin because NDCs associated with the lowest AMPs often
                      accounted for a small portion of Medicaid utilization. For 109 of the
                      521 drugs (21 percent) on the Federal upper limit list, the NDC with the
                      lowest AMP was responsible for less than 2 percent of all units of the
                      drug reimbursed by Medicaid in the second quarter of 2006. For 23 of
                      these drugs, NDCs whose AMPs would be used to set the Federal upper
                      limit accounted for less than 0.01 percent of the utilization, with
                      14 having no utilization at all in the second quarter of 2006.




                        17 For example, a drug with a lowest AMP of $0.40 would have a new Federal upper
                      limit amount of $1.00 ($0.40 times 250 percent). If the second-lowest AMP is higher than
                      this new Federal upper limit amount (e.g., $1.01), then the lowest AMP would be at least
                      60 percent below the second-lowest AMP ($0.40 is 60.4 percent below $1.01). In its proposed
                      regulation, CMS uses a 70-percent rather than 60-percent threshold in comparing the
                      lowest AMP to the second-lowest AMP.
                        18 We calculated the volume-weighted AMP among all NDCs for the drug by weighting

                      the AMP for each individual NDC by the number of units of the NDC reimbursed by
                      Medicaid in the second quarter of 2006.



    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   12
F   I N D I N G        S 




 Among the 25 selected high-expenditure drugs,           In the second quarter of 2006, the
                                                         lowest AMP was more than
   examining the volume-weighted AMPs helped
                                                         60 percent below the volume-
identify instances in which pharmacy acquisition
                                                         weighted AMP for 20 of the
   costs may exceed the new Federal upper limit          25 selected high-expenditure
                                           amounts       drugs under review. In all but one
                    of these cases, the average pharmacy acquisition costs exceeded the new
                    Federal upper limit amount. Likewise, for the five drugs for which the
                    lowest AMP did not exceed the 60-percent threshold compared to the
                    volume-weighted AMP, the average pharmacy acquisition costs were
                    below the new Federal upper limit amount. In other words, in all but
                    one case, determining whether or not the lowest AMP for any of the
                    25 selected high-expenditure drugs exceeded the 60-percent threshold
                    compared to the volume-weighted AMP would have accurately
                    determined whether or not its average acquisition cost was higher than
                    the new Federal upper limit amount.
                      Examining the second-lowest AMP was not as effective in identifying
                      instances in which pharmacy acquisition costs may exceed the new
                      Federal upper limit amounts. In the second quarter of 2006, the lowest
                      AMP was more than 60 percent below the second-lowest AMP for 5 of
                      the 25 selected high-expenditure drugs under review. In each of these
                      cases, the average pharmacy acquisition cost was at least double the
                      new Federal upper limit amount.

                      However, 14 of the 20 high-expenditure drugs for which the lowest AMP
                      did not exceed the 60-percent threshold compared to the second-lowest
                      AMP also had pharmacy acquisition costs that were higher than the
                      new Federal upper limit amount. In fact, for 6 of these 14 drugs, the
                      lowest AMP was no more than 10 percent below the second-lowest AMP.
                      Therefore, potential reimbursement issues for these 14 drugs would not
                      have been identified by using the second-lowest AMP as a point of
                      comparison during the second quarter of 2006.

                      Table 4 on the following page illustrates the relationship between the
                      new Federal upper limit amounts, average acquisition costs, second-
                      lowest AMPs, and volume-weighted AMPs for the 25 selected high-
                      expenditure drugs.




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   13
      F    I N D I N G                S        





Table 4: Relationship Between New Federal Upper Limit Amounts, Estimated Acquisition Costs, and Other AMPs


                                                                                                     Average               Lowest AMP           Lowest AMP
                                                                                                    Acquisition             More Than            More Than
                                                                                                   Cost Exceeds             60 Percent           60 Percent
                                                                                                   New Federal            Below Second         Below Volume-
Drug                                                                                                Upper Limit            Lowest AMP          Weighted AMP
Albuterol, 0.09MG/Actuation, Aerosol Solid (Inhaler)
Ranitidine Hydrochloride, 150MG, Tablet
Acetaminophen/Hydrocodone Bitartrate, 500MG-5MG, Tablet
Gabapentin, 800MG, Tablet
Gabapentin, 600MG, Tablet
Oxycodone Hydrochloride, 80MG, Tablet Extended Release                                                                                              X
Glimepiride, 4MG, Tablet                                                                                    X                                       X
Lorazepam, 1MG, Tablet                                                                                      X                                       X
Glyburide/Meformin Hydrochloride, 5MG-500MG, Tablet                                                         X                                       X
Potassium Chloride, 20MEQ, Tablet Extended Release                                                          X                                       X
Gabapentin, 300MG, Capsule                                                                                  X                                       X
Zonisamide, 100MG, Capsule                                                                                  X                                       X
Tramadol Hydrochloride, 50MG, Tablet                                                                        X                                       X
Acetaminophen/Propoxyphene Napsylate, 650MG-100MG, Tablet                                                   X                                       X
Metformin Hydrochloride, 500MG, Tablet                                                                      X                                       X
Omeprazole, 20MG, Enteric Coated Tablet                                                                     X                                       X
Glyburide, 5MG, Tablet                                                                                      X                    X                  X
Paroxetine Hydrochloride, 40MG, Tablet                                                                      X                    X                  X
Albuterol Sulfate, 0.83%, Solution                                                                          X                                       X
Ribavirin, 200MG, Capsule                                                                                   X                                       X
Gabapentin, 400MG, Capsule                                                                                  X                                       X
Oxycodone Hydrochloride, 40MG, Tablet Extended Release                                                      X                    X                  X
Oxycodone Hydrochloride, 20MG, Tablet Extended Release                                                      X                    X                  X
Paroxetine Hydrochloride, 20MG, Tablet                                                                      X                                       X
Metformin Hydrochloride, 1000MG, Tablet                                                                     X                    X                  X
Source: OIG analysis of second-quarter 2006 AMP data and drug distributor data, 2006.




                  OEI-03-06-00400            DEFICIT REDUCTION ACT     OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM    14 

Δ   R E C O M M E N D A T I O N S                                                     


                  Based in part on OIG work that consistently found that the published
                  prices used to set Federal upper limit amounts often greatly exceed
                  prices available in the marketplace, the DRA has substantially changed
                  the way Medicaid Federal upper limit amounts are calculated. As of
                  January 1, 2007, Federal upper limits are based on 250 percent of the
                  lowest reported AMP rather than 150 percent of the lowest price
                  published in the national compendia.

                  The findings of this report again illustrate why changes to the previous
                  calculation method were needed, as this method led to inflated Medicaid
                  payments for many high-dollar generic drugs. Furthermore, using
                  actual sales data (such as AMP) rather than published prices to
                  calculate Federal upper limit amounts present several additional
                  advantages, i.e., they are defined by statute, are based on real-world
                  transactions, and can be audited. However, we have concerns that, at
                  least initially, the new formula may result in some Federal upper limit
                  amounts that are below pharmacy acquisition costs. This could occur
                  because for certain drugs the lowest AMPs may not reflect prices
                  generally available in the marketplace.

                  As part of the proposed Federal upper limit regulation, CMS announced
                  plans to identify potential reimbursement issues by removing the lowest
                  AMP if it appears to be an outlier. The proposed regulation defines an
                  outlier as a lowest AMP that is more than 70 percent below the second-
                  lowest AMP. We support CMS’s attempts to proactively resolve
                  potential problems with the new formula. However, our analysis
                  (applying a more limited 60-percent threshold) indicates that using the
                  second-lowest AMP may not alleviate all reimbursement issues.

                  In addition to CMS’s efforts, drug manufacturers and pharmacies also
                  have important roles in helping to ensure that the new Federal upper
                  limit amounts are appropriate. Manufacturers of generic drugs should
                  make certain that the AMPs they are reporting to CMS are accurate. In
                  turn, pharmacies should inform CMS if the new Federal upper limit
                  amounts are lower than the prices at which they can purchase certain
                  drugs.

                  We recognize that for various reasons (e.g., definitional changes in
                  AMP, market forces, etc.) the relative relationship between the Federal
                  upper limit amounts and other price points presented in this report may
                  change once the new method of calculation is implemented. However,
                  new Federal upper limit amounts should be monitored closely to help



OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   15
R 	E C O      M M E N D A T            I O N                S


                   ensure that reimbursement changes do not lead to access problems for
                   Medicaid beneficiaries. Specifically, we recommend that:
                   CMS should take steps to identify when a new Federal upper limit amount
                   may not be representative of a drug’s acquisition cost to pharmacies.
                   These steps could include:

                       •	   issuing a final regulation that would remove the lowest AMP
                            from the Federal upper limit calculation when it is significantly
                            lower than the volume-weighted AMP (rather than the second-
                            lowest AMP) for a drug,

                       •	   contacting manufacturers to verify reported data in situations
                            for which the lowest AMP appears to be significantly lower than
                            other AMPs for a drug,

                       •	   examining Medicaid utilization data to ensure that the product
                            on which the Federal upper limit is based is actually utilized in
                            the marketplace, and

                       •	   providing an opportunity for pharmacies to alert the States and
                            CMS when they can demonstrate an inability to purchase a drug
                            at prices at or below the new Federal upper limit amount.
                   In situations where 250 percent of the lowest AMP may not be sufficient
                   to cover pharmacy acquisition costs, CMS should determine the proper
                   course of action (working with Congress, if necessary).


                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with our recommendation that the new Federal upper
                   limit amount should be monitored closely during initial implementation
                   and agreed that manufacturers play an important role in this regard.
                   However, CMS strongly disagreed with our findings concerning the
                   effect of the DRA-related changes to the Federal upper limit calculation.
                   CMS suggested that OIG should have waited until the final AMP
                   regulation is promulgated before completing its study, stating “it is only
                   after a final definition of AMP has been issued that an accurate analysis
                   of the impact of DRA can be conducted.” Once that occurs, CMS
                   believes that that an analysis based on actual AMPs would yield
                   substantially different results. CMS stated that the analysis in the OIG
                   report is deficient in numerous ways and such deficiencies lead to
                   flawed results and misleading conclusions. Therefore, CMS requested
                   that we (1) revise our analysis to address these flaws and (2) delay

 OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   16
R   E C O        M M E N D A T            I O N                S


                      issuing this report while considering earlier discussions and working
                      collaboratively with the agency.

                      OIG will continue to work collaboratively with CMS in an effort to
                      address any potential issues with the new calculation method for
                      Federal upper limits. However, issuing this report prior to CMS’s
                      publication of its final regulation provides the agency with the
                      opportunity to consider our findings and incorporate our
                      recommendations. The data presented in this report are the best
                      available for the timeframe, and any limitations have marginal impact
                      and do not change the overall findings and conclusions. We note that a
                      similar report by the Government Accountability Office (GAO) identified
                      the same issues and reached similar conclusions.19
                      A detailed discussion of CMS’s specific comments is presented below.
                      The full text of CMS’s comments is presented in Appendix B.
                      Detailed Discussion of CMS Comments
                      AMP-related issues: CMS stated that AMPs used in OIG’s analysis are
                      lower than appropriate, noting that we did not account for the exclusion
                      of prompt pay discounts from AMP starting in 2007 or other changes to
                      AMP that may occur under the new AMP regulation. Therefore, OIG
                      should have waited until this regulation takes effect before conducting
                      this study. CMS also stated that it will not calculate Federal upper
                      limit amounts based on AMPs for terminated products and that our
                      analysis does not address this. Furthermore, CMS disagreed with our
                      use of volume-weighted average AMPs in part of our analysis. The
                      agency stated that current market volume is not indicative of a drug
                      product’s national availability because of the incentives in the previous
                      system that may have lead pharmacies to purchase drugs with the most
                      inflated price.

                      OIG addresses several of these issues in the report. While OIG does
                      plan to undertake similar work once the new regulation goes into effect,
                      it was also important to conduct a pre-implementation study to identify
                      any potential issues with the new calculation method so that CMS could
                      consider them in the development of its final regulation.



                        19 “Medicaid Outpatient Prescription Drugs: Estimated 2007 Federal Upper Limits for
                      Reimbursement Compared with Retail Pharmacy Acquisition Costs,” (GAO-07-239R,
                      December 2006). Available online at http://www.gao.gov/new.items/d07239r.pdf. Accessed
                      January 22, 2007.



    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   17
R   E C O        M M E N D A T            I O N                S


                      We agree with CMS that the AMPs we used may have increased since
                      the time of our analysis, as prompt-pay discounts are no longer included
                      in manufacturers’ calculations. However, in previous studies, we found
                      that prompt-pay discounts typically range from 1 percent to 3 percent—
                      not a substantial enough margin to change the overall impact of the
                      data presented in this report. In regard to terminated products, AMPs
                      for terminated NDCs were excluded from our analysis and therefore
                      were not a factor in our calculations. Finally, the lowest AMP, second-
                      lowest AMP, and volume-weighted AMP were all important comparison
                      points we used in our analysis. The advantages of using volume-
                      weighted AMP are that (1) it reflects the products actually used in the
                      marketplace; (2) it is very similar to the average sales prices used as the
                      basis for Medicare drug reimbursement; and (3) based on our analysis of
                      25 drugs, it was a more accurate predictor of drugs for which acquisition
                      costs may exceed the Federal upper limit amount than was the second-
                      lowest AMP.
                      Acquisition cost-related issues. CMS stated that the acquisition costs
                      presented in our report are higher than appropriate because (1) our
                      analysis does not fully account for discounts and rebates, and (2) our
                      analysis should have focused on the lowest acquisition costs available to
                      pharmacies rather than the average acquisition costs.
                      Overall, the data provided in this report are the best available for the
                      timeframe. We note that CMS has also used these data to perform its
                      own analysis. In this report, OIG states that we asked distributors to
                      provide information on discounts and rebates, but only two of the five
                      respondents did so. The other three distributors described the difficulty
                      in capturing these data on a drug-by-drug basis. However, given the
                      magnitude of the difference between the new Federal upper limit
                      amount and pharmacy acquisition cost for a number of drugs, this
                      limitation does not negate our underlying concerns.

                      With respect to the lowest acquisition costs, numerous pricing points
                      could have been used in our analysis. The lowest price reported by
                      distributors is one important pricing point, and the report includes a
                      subfinding that addresses how the new Federal upper limit amounts
                      compare to these figures. Even when using the lowest price reported by
                      distributors, potential reimbursement issues would still exist, as we
                      found that the lowest acquisition costs for half of the drugs exceeded the
                      new Federal upper limit amount. We chose the volume-weighted
                      average acquisition cost for the primary analysis because it reflects the


    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   18
R   E C O        M M E N D A T            I O N                S


                      prices of the drugs that pharmacies actually purchased and because we
                      could not determine whether the lowest prices reported by distributors
                      were readily available to most purchasers.
                      Aggregate cost-related issues. Under current law, Federal upper limits
                      apply in the aggregate. In other words, States may set reimbursement
                      for some drugs at amounts above the Federal upper limit if other drugs
                      are reimbursed at amounts that are below (as long as a State’s overall
                      spending is below the aggregate spending that would occur at the
                      CMS-determined Federal upper limit amounts). CMS stated that our
                      analysis does not address the mitigating effects of applying Federal
                      upper limits in the aggregate.

                      OIG recognizes the importance of the aggregate concept and agrees with
                      CMS that States should continue to use this flexibility when
                      appropriate. However, balancing reimbursements above and below the
                      Federal upper limit amounts while meeting the aggregate spending
                      limit was easier when Federal upper limit amounts were highly
                      inflated. Before the DRA-related changes, Federal upper limit amounts
                      for most drugs exceeded acquisition costs (often by a large margin),
                      meaning that few drugs would warrant an increase in their
                      reimbursement amounts. Furthermore, the many drugs with Federal
                      upper limit amounts above acquisition costs provided States with
                      numerous choices for balancing out these price increases.

                      With the move to AMPs as the basis for calculating Federal upper limit
                      amounts, OIG anticipates that it will be more difficult to apply the
                      flexibility afforded by an aggregate limit. Using our findings in this
                      report as an example, reimbursement amounts for the 6 drugs with
                      average acquisition costs below the Federal upper limit amount would
                      need to be decreased sufficiently to balance out an increase in the
                      reimbursement amounts for the 19 drugs with average acquisition costs
                      above the new Federal upper limit amount.
                      State maximum allowable cost programs. CMS stated that the comparison
                      between pre- and post-DRA Federal upper limit amounts is improper
                      because it does not account for the impact of State maximum allowable
                      cost programs (i.e., States often pay less than the Federal upper limit
                      amount for many drugs).
                      OIG discusses the relevance of State maximum allowable cost to our
                      findings in this report. The objective of this report was to determine
                      how Federal upper limits were impacted under the DRA methodology,
                      and we focused our analysis on that objective.

    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   19
R   E C O        M M E N D A T            I O N                S


                      Attached chart containing CMS analysis. CMS attached a chart with its
                      comments showing that, based on (1) February 2007 AMPs,
                      (2) application of an outlier policy, and (3) the lowest reported
                      acquisition costs, 20 of 25 drugs would be available at or below the new
                      Federal upper limit amount. CMS also used the chart to conclude that,
                      in the aggregate, pharmacies would not have been underreimbursed in
                      the second quarter of 2006 if they all purchased drugs at the lowest
                      price reported by distributors (but not at the average price).

                      Even if OIG accepts CMS’s assumptions regarding the data presented in
                      its chart (including the assumption that all pharmacies could have
                      purchased the drug for the lowest report acquisition cost, discussed on
                      pages 18 and 19), we continue to have concerns about the potential
                      impact of the new Federal upper limit amounts for certain drugs.
                      According to CMS’s aggregate calculations, pharmacies would have
                      made up for a $3 million total quarterly loss on 24 of the 25 drugs in the
                      second quarter of 2006 by receiving $11 million in excessive
                      reimbursement for one drug, albuterol aerosol (a drug for which the new
                      Federal upper limit amount was well above acquisition cost). In other
                      words, pharmacies could make up (in the aggregate) for losses on most
                      other drugs by filling albuterol prescriptions. However, pharmacies
                      that do not sell a large volume of albuterol would find it difficult to
                      receive adequate reimbursement for the entire group of drugs.
                      Therefore, while OIG acknowledges the aggregate application of the
                      Federal upper limit program, we also see important advantages to
                      striving to set reimbursement for all drugs at appropriate levels, with
                      cross-subsidies being limited whenever possible.




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   20
Δ   A P P E N D I X ~ A                              





                  DETAILED METHODOLOGY
                  Data Sources
                  Identifying Drugs for Review. Using data from CMS’s Web site and the
                  national drug compendium “Redbook,” we identified all drugs included
                  on the Federal upper limit list in the second quarter of 2006. Federal
                  upper limit amounts for these drugs were based on 150 percent of the
                  lowest price published in the national compendia. During that quarter,
                  CMS had established Federal upper limits for 530 drugs.

                  We then obtained calendar year (CY) 2005 Medicaid drug
                  reimbursement and utilization data from CMS’s Web site and identified
                  the 25 drugs (of the 530) on the Federal upper limit list with the highest
                  total Medicaid expenditures that year.20
                  Acquisition Cost Data. For the 25 listed drugs with the highest total
                  Medicaid expenditures in 2005, we collected second-quarter 2006 pricing
                  and sales data from the three largest national distributors
                  (AmerisourceBergen, McKesson, and Cardinal Health)21 and two
                  smaller regional distributors (Mutual Drug Company and Burlington
                  Drug Company). Each distributor was asked to provide the total dollar
                  amount sold, the amount of discounts and rebates paid to purchasers,
                  the net dollar amount sold, the total number of units sold, and the
                  average selling price during the second quarter of 2006 for all NDCs
                  associated with the top 25 Federal upper limit drugs.

                  AMP Data. We obtained AMP data for the second quarter of 2006 from
                  CMS.
                  Data Analysis
                  Estimating Pharmacy Acquisition Costs for Selected Drugs. Among the
                  five distributors, we totaled the dollar amount sold (net of reported
                  discounts and rebates, when possible) for all NDCs associated with each
                  of the 25 selected high-expenditure drugs, and divided this amount by
                  the total number of units of each NDC sold. We also determined the



                     20 CY 2005 reimbursement and utilization data were the most current available at the
                  time of our sample selection.
                    21 According to industry sales reports, these three national companies account for the
                  vast majority of market share among drug distributors.



OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   21
A   P   P E N D       I X ~     A


                      lowest price reported to OIG by the distributors for any NDC associated
                      with the 25 drugs. 22
                      Estimating Federal Upper Limit Amounts Under New Calculation Method. To
                      estimate what Federal upper limit amounts would be under the new
                      methodology set forth in section 6001(a) of the DRA, we determined the
                      lowest AMP reported by manufacturers among NDCs associated with
                      the 530 drugs on the Federal upper limit list in that quarter.

                      Under 42 CFR 447.332 (in effect during the time of our review), a
                      Federal upper limit amount should be based on the least costly
                      therapeutically equivalent drug that can be purchased by pharmacists
                      in quantities of 100 (or if the drug is not commonly available in
                      quantities of 100, a commonly listed package size). In determining the
                      lowest AMP for any given Federal upper limit drug, we examined only
                      NDCs in a commonly listed size that were identified as therapeutically
                      equivalent in either CMS’s drug product file23 or the national drug
                      compendium “Redbook.” For the purpose of this study, AMPs for
                      terminated NDCs were not used to estimate new Federal upper limit
                      amounts.24
                      Of the 530 drugs included on the Federal upper limit list in the second
                      quarter of 2006, 9 did not have AMP data for any nonterminated,
                      therapeutically equivalent NDCs of a commonly listed size. Therefore,
                      we did not include these drugs in our analysis. For the remaining
                      521 drugs, we multiplied the lowest AMP by 250 percent to estimate the
                      new Federal upper limit amounts under the methodology mandated by
                      the DRA.
                      Comparing New and Second-Quarter 2006 Federal Upper Limit Amounts. For
                      each of the 521 drugs included in our review, we calculated the
                      percentage difference between the new Federal upper limit amounts
                      (based on 250 percent of AMP) and the second-quarter 2006 Federal
                      upper limit amounts (based on 150 percent of the lowest published



                        22 One of the five distributors did not provide sales and utilization data broken down by
                      the NDC. Therefore, this distributor’s data were not included in the determination of the
                      lowest price for a drug.
                        23 Available online at

                      http://www.cms.hhs.gov/MedicaidDrugRebateProgram/09_DrugProdData.asp. Accessed on
                      September 8, 2006.
                        24 As reported in the national drug compendium “RedBook,” a terminated NDC is one
                      assigned to a product that has been deactivated by a manufacturer.



    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   22
A   P   P E N D       I X ~     A


                      price). We categorized the drugs into ranges based on the percentage
                      increases or decreases in their Federal upper limit amounts.
                      Comparing Federal Upper Limit Amounts to Pharmacy Acquisition Costs.
                      We calculated the percentage difference between the second-quarter
                      2006 Federal upper limit amounts and the average pharmacy
                      acquisition costs for each of the 25 selected high-expenditure drugs. We
                      then calculated the difference between the new Federal upper limit
                      amounts (based on 250 percent of the lowest AMP) and the average
                      pharmacy acquisition costs. For each of the 25 drugs, we also compared
                      the lowest price reported by any of the distributors for any associated
                      NDC to the new Federal upper limit amount.
                      Comparing the Lowest AMP to the Other AMPs. To assess whether the
                      lowest AMPs used to set the new Federal upper limit amounts were
                      representative of other AMPs for the same drug, we determined the
                      second-lowest and volume-weighted AMPs for each of the 521 drugs
                      under review. In identifying the second-lowest AMPs, we limited our
                      analysis to nonterminated, therapeutically equivalent NDCs of a
                      commonly listed size. We calculated the volume-weighted AMP among
                      all NDCs for the drug by weighting the AMP for each individual NDC by
                      the number of units of the NDC reimbursed by Medicaid in the second
                      quarter of 2006. We then compared the lowest AMP to the second-
                      lowest and volume-weighted AMPs for each of the 521 drugs and
                      identified instances in which the lowest AMP was more than 60 percent
                      below either of these other two figures. 25 We subset out the results for
                      the 25 selected high-expenditure drugs for further analysis.
                      Determining if Other AMPs Could Help Identify Potential Issues. Among the
                      25 selected high-expenditure drugs, we identified any instances in
                      which the lowest AMP was more than 60 percent below the second-
                      lowest and/or volume-weighted AMP. For any drugs that exceeded this
                      threshold, we determined whether the average pharmacy acquisition
                      costs exceeded the new Federal upper limit amount. We repeated this

                         25 In its proposed regulation, CMS uses a 70 percent rather than a 60-percent threshold

                      in comparing the lowest AMP to the second-lowest AMP. We chose to use 60 percent in our
                      analysis because whenever the lowest AMP exceeds this threshold relative to the second-
                      lowest AMP, then the second-lowest AMP (and all other AMPs) for a drug would be higher
                      than the new Federal upper limit amount. For example, a drug with a lowest AMP of $0.40
                      would have a new Federal upper limit amount of $1.00 ($0.40 times 250 percent). If the
                      second-lowest AMP is higher than this new Federal upper limit amount (e.g., $1.01), then
                      the lowest AMP would be at least 60 percent below the second-lowest AMP ($0.40 is
                      60.4 percent below $1.01).



    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   23
A   P   P E N D       I X ~     A


                      analysis for drugs that did not meet the 60-percent threshold. This
                      analysis allowed us to determine whether exceeding the 60-percent
                      threshold (compared to either the second-lowest or volume-weighted
                      AMP) was linked to a drug’s average acquisition cost being higher than
                      the new Federal upper limit amount for these 25 drugs.




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   24
Δ   A P P E N D I X ~ B


     Agency Comments




OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   25
A   P   P E N D       I X      ~      B




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   26
A   P   P E N D       I X      ~      B




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   27
A   P   P E N D       I X      ~      B




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   28
A   P   P E N D       I X      ~      B




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   29
A   P   P E N D       I X      ~      B




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   30
A   P   P E N D       I X      ~      B




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   31
A   P   P E N D       I X      ~      B




    OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   32
ΔA   A PC EK N N D OI W
     P
                        L E D G M E N T S
                      X ~ A
                                                                                        




                   This report was prepared under the direction of Robert A. Vito, Regional
                   Inspector General for Evaluation and Inspections in the Philadelphia
                   regional office, and David E. Tawes, Director of the Medicare and
                   Medicaid Prescription Drug Unit.

                   Other principal Office of Evaluation and Inspections staff from the
                   Philadelphia regional office who contributed include Lauren McNulty
                   and Jessica Demko. Central office staff who contributed include Sarah
                   Craren, Cynthia Thomas, and Gina Maree.




 OEI-03-06-00400   DEFICIT REDUCTION ACT   OF   2 0 0 5 : I M PA C T   ON THE   MEDICAID FEDERAL UPPER LIMIT PROGRAM   33
